                                                         NAnONAL SCIENCE FOUNDA nON
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESnGAnONS

                                                   CLOSEOUT MEMORANDUM

 Case Number: AI0060045                                                                           Page I of I
   'I




                     NSF OIG received an allegation of plagiarism within 2 NSF proposals l submitted by the
             same PI? We reviewed the allegedly plagiarized materials in both proposals and asked the
             Subject to respond to the allegations. Based on his response and the de minimus amount of
             plagiarism, we sent the Subject a letter reminding him of his responsibility to adequately cite all
             material in his NSF proposals.

                       This case is closed and no further action will be taken.




N,SF    oro Fonn 2 (11102)
